HHS/OIG-Audit--"Sutter Oaks-Arden and Sutter Oaks- Carmichael skilled
Nursing Facility Billings and Costs for Ancillary Medical Supplies, (A-09-97-00075)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Sutter Oaks-Arden and Sutter Oaks-Carmichael Skilled Nursing Facility
Billings and Costs for Ancillary Medical Supplies for the Period January 1,
1994 through December 31, 1995," (A-09-97-00075)
March 24, 1998
Complete Text of Report is available in PDF format
(180 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
We determined that Sutter misclassified costs on its Medicare cost reports
and incorrectly billed for ancillary medical supplies. We found that about 39 percent
of costs for ancillary medical supplies were misclassified and about 7 percent
of items billed as ancillary medical supplies were actually routine supplies.
We also noted that Sutter incorrectly classified $282,018 of supply accounts
resulting in excessive ancillary costs. We recommended that Sutter determine
the fiscal impact for the incorrectly claimed costs, the billing errors, and
the $282,018 of incorrectly classified supply accounts, and make an appropriate
refund to Medicare.